HHS/OIG-Audit--"Review of Alleged Conflicts-of-Interest in National Institutes of Health Consensus Development Conference on the Treatment of Destructive Behaviors in Persons with Developmental Disabilities, (A-15-90-00009)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Alleged Conflicts-of-Interest in National Institutes of Health
Consensus Development Conference on the Treatment of Destructive Behaviors in
Person with Developmental Disabilities," (A-15-90-00009)
June 23, 1992
Complete Text of Report is available in PDF format
(229 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our evaluation of potential conflicts-of-interest
involving the September 1989 National Institutes of Health (NIH) Consensus Development
Conference (Conference) on the "Treatment of Destructive Behaviors in Persons
with Developmental Disabilities." Critics claimed that the Conference's
"sanctioning" of a controversial pain-inflicting electrical device,
called the Self-injurious Behavior Inhibiting System, resulted from "cozy
relationships and financial ties" involving Conference officials and promoters
of the device. We found no evidence that Conference officials gained financially.
We also found no evidence that these associations influenced the Conference
officials in their decisions concerning the device. Rather, the Conference concluded
that the device and other aversive treatments should be discouraged and used
only under restrictive conditions. Our review did, however, disclose that NIH
had not implemented effective internal control techniques for identifying, documenting,
and evaluating potential conflicts-of-interest for Conference officials. In
addition, we found that no internal control review has been conducted of the
consensus development conference program as intended under the Federal Managers'
Financial Integrity Act (FMFIA). We recommended that an internal control review
be periodically conducted of the consensus development conference program in
accordance with FMFIA requirements. The Public Health Service concurred with
our recommendation.